HHS/OIG-Audit--"Monitoring Quality of Care and Overpayment Issues Associated With Hospital Readmissions Under the Medicaid Prospective Payment System, (A-01-98-00504)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Monitoring Quality of Care and Overpayment Issues Associated With Hospital Readmissions Under the Medicare Prospective
Payment System," (A-01-98-00504)
May 5, 1999
Complete
Text of Report is available in PDF format (1.88 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report estimates, based on a statistical sample, that Medicare overpayments due to inappropriate same day/same
hospital readmissions in 18 States totaled approximately $22 million in Calendar Year 1996. The most prevalent errors were
attributable to premature discharges from the initial hospital stay (12 of 29 sample errors), and the provision of additional
services that should have been provided and billed as part of one continuous length of stay (8 of 29 sample errors). This
indicates a serious quality of care issue which needs to be closely monitored. In addition to financial adjustments, we
recommended that the Health Care Financing Administration (HCFA) work with the Office of Inspector General (OIG) to do
additional work dealing with hospital readmissions to identify additional overpayments, to monitor quality of hospital
care, and to profile aberrant hospital providers ensuring corrective actions plans are instituted and investigative referrals
are made to the OIG when appropriate. The HCFA concurred with our findings and recommendations.